Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

September 26, 2019
BY FIRST-CLASS MAIL
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
Re:

Ford Motor Company v. Adam Bandemer, No. 19-369

Dear Mr. Harris:
I represent Ford Motor Company in the above-referenced matter.
In accordance with Rule 37(3)(a) of the Rules of the Supreme Court of the United States,
Petitioner, Ford Motor Company, hereby grants blanket consent to the filing of amicus curiae
briefs in support of either or neither party in this matter.
Thank you.
Sincerely,
/s/ Sean Marotta
Sean Marotta
HOGAN LOVELLS US LLP
555 Thirteenth St., NW
Washington, DC 20004
(202) 637-4881
sean.marotta@hoganlovells.com
Counsel for Petitioner
cc:

Kyle W. Farrar
Steven D. Lastovich

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US
LLP and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Dubai
Dusseldorf Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan
Minneapolis Monterrey Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rio de Janeiro Rome San Francisco São Paulo Shanghai
Silicon Valley Singapore Sydney Tokyo Warsaw Washington DC Associated offices: Budapest Jakarta Shanghai FTZ Ulaanbaatar Zagreb. Business Service
Centers: Johannesburg Louisville. For more information see www.hoganlovells.com

